<html>
<title> - [H.A.S.C. No. 111-103]AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 1</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 111-103]

      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 1

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 22, 2009

                                     
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
53-449                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
SUSAN A. DAVIS, California           MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GLENN NYE, Virginia                  DOUG LAMBORN, Colorado
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
                 Drew Walter, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant







                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, October 22, 2009, Afghanistan and Iraq: Perspectives on 
  U.S. Strategy, Part 1..........................................     1

Appendix:

Thursday, October 22, 2009.......................................    31
                              ----------                              

                       THURSDAY, OCTOBER 22, 2009
      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 1
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     1

                               WITNESSES

Barno, Lt. Gen. David, USA (Ret.), Director, Near East South Asia 
  Center for Strategic Studies, National Defense University......     4
Cole, Beth Ellen, Senior Program Officer, Center for Post-
  Conflict Peace and Stability Operations, United States 
  Institute of Peace.............................................     7
McCaffrey, Gen. Barry, USA (Ret.), President, BR McCaffrey 
  Associates, LLC................................................     2
Waldman, Matthew, Fellow, Carr Center for Human Rights, Kennedy 
  School of Government, Harvard University.......................     9

                                APPENDIX

Prepared Statements:

    Barno, Lt. Gen. David........................................    47
    Cole, Beth Ellen.............................................    53
    McCaffrey, Gen. Barry........................................    41
    Waldman, Matthew.............................................    64
    Wittman, Hon. Rob............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 1

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                        Washington, DC, Thursday, October 22, 2009.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Vic Snyder (chairman 
of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    I actually have a wonderfully prepared written statement, 
but I think we know why we are here. We are going to talk about 
foreign policy and national security objectives primarily in 
Afghanistan, but also as it relates to Iraq.
    I will defer now to Mr. Wittman.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Mr. Chairman, in that spirit, I have a written 
statement that I will submit for the record. In the interest of 
time, we will go ahead and dispense with my opening statement.
    I thank the panelists for joining us today. We appreciate 
your efforts. We know this is a very timely and important 
issue, and we look forward to hearing your thoughts and ideas 
on the current state of affairs, and where we need to go, and 
how we can best get there. Thanks.
    Dr. Snyder. Thank you.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 35.]
    Dr. Snyder. Our witnesses today are General Barry 
McCaffrey, Retired, U.S. Army; Lieutenant General David Barno, 
Retired, from the U.S. Army; Beth Ellen Cole, Senior Program 
Officer, Center for Post-Conflict Peace and Stability 
Operations, United States Institute for Peace; and Mr. Matthew 
Waldman, Carr Center for Human Rights at the Kennedy School of 
Government at Harvard.
    General McCaffrey, we will begin with you.

 STATEMENT OF GEN. BARRY MCCAFFREY, USA (RET.), PRESIDENT, BR 
                   MCCAFFREY ASSOCIATES, LLC

    General McCaffrey. Thank you, Mr. Chairman, Mr. Wittman, 
and members of the committee, for including me in a very 
distinguished panel. I know that you will enter our statements 
into the record.
    Dr. Snyder. Without objection, they will all be made part 
of the record.
    General McCaffrey. I ran through several iterations on 
this. I was trying to end up with probably less a prescription 
than the questions that the committee and the administration 
has to ask themselves as they try and sort out the way ahead, 
and I have also given you some other material relating to the 
platform that I use as an adjunct professor up at West Point to 
try and hopefully add to the debate with informed, objective, 
and nonpartisan insights.
    A couple of quick, brief comments, not to reiterate what I 
put in my statement. Number one, what is the situation in 
Afghanistan? It seems to me, I have known General McChrystal 
since he was a lieutenant colonel, Petraeus since he was a 
cadet. It is rare that I would make this statement: I think 
these two are probably the most talented, determined people we 
have had in uniform in many ways since World War II.
    McChrystal, as you know, has run a parallel universe, Joint 
Special Operations Command (JSOC), for 5 years. Publicly we 
don't talk too much about that effort, except I have 
characterized them as basically the most dangerous people on 
the face of the Earth. We picked him. He listened to the 
President's March strategy. He was a student of the interagency 
process conducted January through March. The incumbent military 
Joint Commander, North Atlantic Treaty Organization (NATO), 
Commander Dave McKiernan, was asked to step off his 
responsibilities. We put McChrystal on the ground, and 
unsurprisingly he has made what I would strongly underscore is 
a nonpolitical assessment of the situation.
    Given the counterinsurgency strategy, and given the threat 
situation on the ground, he has tried to come up with options 
for the Commander in Chief. The only criticism I might level at 
his analysis and recommendations is, and I sort of go to the 
bottom line, it is always inappropriate to use metaphors that 
are one wavelength off the subject, but I frequently tell 
people that I learned in combat as a rifle company commander 
that when under fire, you have three options. Two of them are 
okay, and one of them is always wrong. The one that is always 
wrong is hunker down under fire and hope something else 
changes. The other two options are break contact and move back, 
think through it and do something new. And the third option is 
attack.
    I think McChrystal has said, I heard your strategy 
formulation, I know what you are trying to achieve, and he 
banded his resource options to include a high end of 40,000 to 
60,000 additional troops.
    Personally I would argue if we were going to reinforce for 
success, it would obviously not just be military, but the 
military component of it would be more likely to be 100,000 
troops than 40,000, obviously with a concomitant increase in 
resources for road building and repair the agricultural system 
and to get contractors in, probably since United States Agency 
for International Aid (USAID) has not been rebuilt since 
Vietnam, to try to dramatically change the situation. But 
personally I don't think that is politically feasible. 
Therefore, I think his analysis is probably on the downside.
    I also think, and several I am sure will make the same 
point, if this was an academic exercise talking theoretical 
options, you can make a decent argument that we shouldn't be in 
Afghanistan with 68,000 U.S., about to reinforce with 40,000 
NATO allies, that we had other strategic options, but we don't. 
We are there now, and so the consequences of our actions in the 
coming 180 days will be immediate. They will have an impact not 
just on the Afghans and our Pakistani neighbors. And many of us 
will argue there are two vital national security issues at 
stake in the United States in the coming five years, and one is 
Saudi Arabia, and the other is Pakistan for a completely 
different calculus, political and economic calculus.
    But the impact of a strategic option that said let us 
downsize, let us do over-the-horizon counterterrorism, which, I 
might add, from a military and an intelligence viewpoint is 
sort of a silly option, but if we had that option, if we 
weren't where we are now, it would be a reasonable thing to 
consider. So I don't think that we can downsize either.
    The end result of all of this is to some extent this is an 
inside-the-Beltway political debate we are taking part in with 
an attentive U.S. public that is focused on the economic 
recession, focused on immigration, focused on Social Security 
reform, and not too keen about a major, decade-long effort in 
Afghanistan. Too bad.
    Sort of a final comment. As we look at the situation on the 
ground, I would give great weight--I have known all of these 
actors. Our U.S. Ambassador to Pakistan, Anne Patterson, 
probably one of the top three Foreign Service officers I have 
ever met in my life, enormously experienced, zero ego, common 
sense, tremendous access, a voice that will help us understand 
and interpret what the Pakistanis are going through. I will be 
in country here in another few weeks, and I will again see 
General Kiyani, and I will go take a look at the frontier 
regions, but I would sort of suggest that we give great weight 
to our own interpretation of what we are seeing on the ground. 
She is absolutely first rate, as is the agency on the ground in 
Pakistan.
    Karl Eikenberry, now the U.S. Ambassador in Afghanistan, 
well known to all of you, one of the few, besides Dave Barno, 
military intellectuals we tolerated in the U.S. Army over the 
years. He has a personal sense of affection and commitment to 
the Afghan people, but I don't think he has ever lost his 
objectivity and his understanding that he is serving U.S. 
national foreign policy interests. Again, I think his 
viewpoints ought to be given special understanding and great 
weight.
    Finally, one thing I must congratulate the Administration 
on. One of the most bizarre and shameful periods in U.S. 
foreign policy history was after the intervention in Iraq, 
which I personally thought was the right thing to do, was to 
take down Saddam at the time. I remember watching Secretary 
Rumsfeld on television just in disbelief where he proudly said 
he had never been asked about his viewpoint on military 
intervention in Iraq, nor had he proffered one. And others in 
the government said the same thing.
    I think the notion that this administration of ours is 
deliberately walking through the options if nothing else is a 
very sound signal within the administration that when they 
reach a conclusion, they own it collectively. It is not just 
the political calculus of the President of the United States, 
but the reasoned thinking of his most senior people: Secretary 
Bob Gates and Secretary Hillary Clinton and others I have 
tremendous respect for.
    On that note, let me just leave those thoughts on the 
table, and I look forward to responding on your own interests.
    Dr. Snyder. Thank you, General McCaffrey. You will have to 
come back and see us after you get back from your next trip.
    [The prepared statement of General McCaffrey can be found 
in the Appendix on page 41.]
    Dr. Snyder. General Barno, I should have pointed out that 
you are the Director of the Near East South Asia Center for 
Strategic Studies at the National Defense University (NDU). We 
appreciate your being here, and you are recognized.

 STATEMENT OF LT. GEN. DAVID BARNO, USA (RET.), DIRECTOR, NEAR 
EAST SOUTH ASIA CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE 
                           UNIVERSITY

    General Barno. Thank you, Mr. Chairman and Ranking Member 
Wittman. Thanks for inviting me back again to the subcommittee 
on a topic near and dear to my heart, having spent 19 months 
out there as the overall Coalition Commander from 2003 to 2005. 
As many of you know, I had my youngest son out there serving in 
the 101st Airborne Division just back in January of this year. 
It is still an arena that I spend a significant amount of time 
on, given my job at NDU, and also one that I have a personal 
commitment to.
    Today's views, despite my government affiliation, are my 
own personal views. I would like to make that point up front.
    I think one of the challenges that we face today with 
regard to our efforts in Afghanistan is what I would 
characterize as a crisis of confidence in the United States and 
among our NATO allies at this particular juncture. In the 
aftermath of a very deeply flawed Afghan election which was set 
in the context of rising American and NATO casualties over this 
summer, the U.S. has some significant challenges in front of 
us, and I want to talk to at least four of those here today.
    I believe, like General McCaffrey, that General 
McChrystal's recent assessment was a very sound one, very 
thorough, and deserves a very careful read, and in some ways, 
however, has fueled this debate. Perhaps in the broader scheme 
of things, to look at where we are and where we are going, that 
is appropriate.
    I would start by asking the question of what, on a 
strategic level--and I want to take this up away from the 
number of troops for most of my remarks and talk about where we 
are going. The fundamental question we have to ask is what is 
the end game for the United States and the region? Where are we 
going? What is our ultimate objective?
    Until we can clearly answer this question, I think, to 
ourselves, to our friends in the region, to our allies in NATO, 
then we have a problem with having a sound policy. If we don't 
have a clear definition of success and, in my judgment, worse 
yet, if we signal that success equals exit and our ultimate 
goal is exit, I think that we have created an unsound strategy 
and one that undercuts our actual objectives in the region. 
That is a bit of a paradox because most Americans, my cousins 
who are farmers in northern Pennsylvania, my aunts and uncles 
of retirement age, don't fully understand why we are in 
Afghanistan, and I think we have to be clear about that.
    I also think that the fundamental flaw in the American 
approach to both Afghanistan and Pakistan lies in the lack of 
confidence in the region in American staying power. When I left 
Afghanistan in May of 2005, the biggest concern I had was the 
lack of the belief among our friends there that we were in this 
to succeed, and we would be in it for as long as it took to 
win. I think this uncertainty in the region, for example, 
drives our friends, the Pakistanis, to judge many of their 
decisions based upon how will this decision look the day after 
America leaves; what position will it put us in for the ensuing 
conflict that is it certain to break out at that point in time.
    I think we have to confront these fears as we think about 
and talk about our policy and our goals and objectives in the 
region.
    I would cite four challenges in front of us as we now have 
gone through this very fractious election, and we are on the 
verge of some tough decisions about future troop strength.
    The first challenge is to understand and defeat the Taliban 
strategy; not simply defeat the Taliban, not simply kill more 
Taliban, but to understand their strategy and have a plan that 
defeats their strategy.
    In simple terms, their strategy is ``run out the clock.'' 
If this were a football game, they believe they are in the 
fourth quarter, they are ahead on the scoreboard, they are 
controlling the football, and they are going to run out the 
clock. They will be the last man on the field when the game is 
over. We have to take that into account as we think about and 
we talk about our strategy on the road ahead.
    Many of our efforts at home inadvertently call into 
question the very purpose and the strength of our resolve in 
Afghanistan. This feeds directly into the Taliban strategy. The 
more we talk about exit as our goal, the more we reinforce what 
the Taliban are telling the people of Afghanistan, in their 
terms: ``the Americans have all of the wristwatches, but we 
have all the time. We, the Taliban, will be here when the 
Americans are gone.'' So that is challenge number one.
    Number two is to rebuild the trust and help the Afghan 
Government; the next version of that, rebuild trust between 
their government and their people. That trust has been badly 
fractured over the last three or four years in Afghanistan. I 
was there during the halcyon days after the first election of 
President Karzai in 2004 and 2005. There was immense hope and 
optimism and positive feelings there. Much of that has been 
lost. Much of that trust has been squandered. I think we have 
to focus our diplomatic efforts in Kabul on helping to shape 
and reform this next government to be one that is viewed as 
noncorrupt as opposed to having corruption as its salient 
feature. Most of all, we have to help that work at the local 
level. Our legitimacy is tied to this government. We have to be 
able to see this government become a better government than the 
one we have supported over the last three years.
    Third is to achieve unity of effort. That was in some ways 
the bane of our existence in the last three years, and bringing 
NATO into Afghanistan, for all of the goodness that brought, 
really brought a lot of dissolution of unity of effort that we 
had under a more centralized command before. Much of that is 
being addressed on the military side, but I think we have to be 
careful that as we bring in new capabilities there, we bring in 
as many civilian capabilities to meet the need there as we do 
on the military side, and that that includes the effects at the 
local level. If we are going to bring 1,000 new civilians into 
Afghanistan by the end of the year, those have got to be out at 
the local level primarily, not simply in Kabul. And I think 
there has to be a fused effort between the Afghan Government, 
its security forces, the international military coalition, and 
the international civil forces all the way down to the local 
effort to make things work for individual Afghans.
    Finally, I think we have to reframe the narrative here at 
home. The rationale for us staying and winning in Afghanistan 
has become muddled here in the United States, out in your 
districts and across the country. That is true in Europe as 
well; perhaps worse there. Our national leaders have to clearly 
articulate our goals, our end game, why we are in Afghanistan, 
and what the costs of failure in Afghanistan are, which are 
extraordinarily serious for us.
    So the fundamental question may end up being: Do we stay or 
do we go? Do we invest and endure, as my friend Ashley Tellis 
here at Carnegie likes to talk about, or do we simply declare 
success and leave and then have to reengage again, reinvade the 
country again, as some pundits have suggested already? That, I 
think, is a choice fraught with great danger.
    I would close by saying that I think success or failure in 
Afghanistan will set the terms of our involvement in that 
region, not just Central Asia, but South Asia, India, Pakistan, 
a very growing and important region for the United States, for 
the next generation. Will our credibility suffer a fatal blow 
among our friends out there? Will the NATO alliance survive a 
defeat and withdrawal from Afghanistan? Will we see another 9/
11 because once again we have walked away from Afghanistan, as 
we did after the defeat of the Soviets at the end of the 1980s?
    Will our adversaries, the extremists, be catalyzed both in 
the region and globally by our departure? And does this victory 
reenergize a birth of this movement of extremism that many see 
as waning today?
    So I would say short-term gains need to be avoided here, 
and we have to take a long, strategic view of the cost in blood 
and treasure versus the downsides of failure. This may be the 
most important national security decision we see here in the 
next several years.
    Thank you.
    Dr. Snyder. Thank you, General.
    [The prepared statement of General Barno can be found in 
the Appendix on page 47.]
    Dr. Snyder. Ms. Cole.

 STATEMENT OF BETH ELLEN COLE, SENIOR PROGRAM OFFICER, CENTER 
FOR POST-CONFLICT PEACE AND STABILITY OPERATIONS, UNITED STATES 
                       INSTITUTE OF PEACE

    Ms. Cole. Mr. Chairman, Ranking Member, and members of the 
committee, I thank you for the opportunity to offer my personal 
views today. I am Beth Cole. I am a senior program officer in 
the Center for Peace and Stability Operations at the U.S. 
Institute of Peace (USIP), and in that capacity over the past 
few years, I have been directing a multiyear effort to produce 
civilian doctrine for stabilization and reconstruction 
missions. I have been working on these missions for about 15 
years before U.S. troops crossed the River Sava to stabilize 
Bosnia.
    As you well know, the military is equipped with a very 
complex system, with doctrine, lessons learned, planning, 
training, education, and deployment. This complex system allows 
the President to time and time again look to the military 
leaders for guidance and for how to implement success on the 
ground.
    The civil side of the United States Government has no 
doctrine, and the elements of this system are now just 
emerging. They are extremely nascent. The system starts with 
strategic doctrine that tells us what we are trying to achieve 
in these missions.
    USIP, with its Army partners at the Combined Army Center at 
Fort Leavenworth, have just released the first strategic 
doctrine for civilians on reconstruction and stabilization 
missions. It follows on the U.S. Army Stability Operations 
Field Manual that was published a year ago under the leadership 
of Lieutenant General Bill Caldwell, who now has been nominated 
to go out to Afghanistan. These manuals share a common face 
because they are companions. The Guiding Principles fills the 
civilian gap. This manual offers a shared strategic framework 
from decades, four or five decades, of conducting these types 
of operations. This has been vetted by United States Government 
agencies, by the United Nations (U.N.), by NATO, by the 
European Union (EU), by nongovernmental organizations, and many 
others.
    In every war-torn country over the past five or six 
decades, we have strived for five core end states: a safe and 
secure environment; the rule of law; stable governance; a 
sustainable economy; and some minimum standards for social 
well-being. A set of 22 necessary conditions have been 
identified in this manual that we should meet to achieve these 
end states. These are shared minimum standards, much like the 
humanitarian community has minimum standards for humanitarian 
relief and assistance. They were developed on the basis of a 
comprehensive review of some 500 core doctrinal documents from 
across the institutions that have engaged in these missions.
    Of these 22 conditions, I recommend prioritizing eight for 
Afghanistan. The first is the primacy of politics, the need to 
reach political settlements, not just at the national level 
where the current crisis resides, but at regional and local 
levels as well. We must redouble our efforts to separate 
reconcilable insurgents from those who will not forsake 
violence.
    Second, we cannot achieve success without security. 
Physical security for the population, their government centers, 
education, health, economic centers will require that 
international forces work closely with Afghan local forces to 
protect the population.
    Third, we must prioritize territorial security by 
mitigating the threats that occur along the Afghanistan-
Pakistan border. Dealing with that border will require a higher 
level of engagement between the Afghanistan and Pakistan 
Governments, as well as elements of civil society that reside 
along that border.
    Fourth, we must redouble our efforts to achieve a 
legitimate monopoly over the means of violence, something 
General McChrystal is very focused on. The objective is not 
only to train and equip police and military forces, but to 
enhance the organizational development and professional 
leadership of those forces.
    Fifth, we need to continue to prioritize the identification 
and disruption of finance networks, as difficult as that may 
be, of the insurgents, organized crime and terrorist 
organizations fueling the fires in Afghanistan. This means 
shutting down foreign financing and disrupting the reliance on 
the narcotic trade and other illicit activities.
    Six, improving access to justice for the population will 
require a bolstering and rebuilding the informal mechanisms for 
dispute resolutions that Afghanistans have long employed, that 
the insurgents have now largely replaced, and supporting the 
traditional justice system that has a justice continuum from 
police to prosecutors to judges to corrections.
    Seven, we must build the capacity of the government to 
deliver essential services to the population and to be seen as 
the deliverer of those essential services. This is necessary to 
separate the population from the insurgents who delegitimize 
the government daily by providing those services themselves.
    Eight, stewardship of state resources means that essential 
services must be delivered by an accountable government. 
Prioritizing support now for subnational institutions of 
government, both informal and formal, will be key to ensuring 
an entry point for those essential services and to boosting 
this lack of confidence that the population has in any form of 
governance.
    Most of these are inherently civilian tasks. We have the 
skills in the United States Government to deliver that 
assistance, not just among our military forces. We now have a 
civil-military plan in Afghanistan, and we are building a 
civil-military structure from every level, from district up to 
the regional commands. So we have a chance right now to put the 
hard lessons that we have learned over the past eight years not 
only in Afghanistan but also in Iraq to work in Afghanistan.
    I look forward to your questions. Thank you.
    Dr. Snyder. Thank you, Ms. Cole.
    [The prepared statement of Ms. Cole can be found in the 
Appendix on page 53.]
    Dr. Snyder. Mr. Waldman.

  STATEMENT OF MATTHEW WALDMAN, FELLOW, CARR CENTER FOR HUMAN 
    RIGHTS, KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Waldman. Mr. Chairman, Ranking Member Wittman, and 
members of the committee, thank you, first of all, for this 
opportunity to be here today.
    If I may, I will make some remarks about why I think we are 
in the current difficulties that we are facing today in 
Afghanistan, and some reflections on the approach that may 
deliver better results going forward.
    I think that it is clear that the international approach 
after 2001 was manifestly insufficient, given the scale of 
devastation that was caused over two decades of war, and that 
it was founded on corruption. In other words, it compounded the 
authority of the warlords and local strongmen. I think it is 
clear international aid has been in many ways ineffective. It 
has been fragmented, supply-driven, inefficient, and not 
responding sufficiently well to Afghan needs and preferences.
    I think also another problem with the international 
approach has been that international military forces have 
tended to prioritize the elimination of insurgents and winning 
hearts and minds through assistance-related projects.
    Now, I would submit that both of these objectives are 
largely futile. Why is this? Well, I think, first of all, we 
have to consider the context, the history of external 
interference in Afghanistan; their proud independence, 
conservatism, and mistrust of foreign forces. Consider also the 
large population of unemployed young men with families to feed. 
The international military are perceived as using excessive 
force through airstrikes and raids, and are perceived as 
propping up a regime that is seen as corrupt and unjust.
    If you also consider the insurgent propaganda and their 
systematic use of terror and intimidation against Afghans, it 
is clear that the Afghan people, while they may not be 
enthusiastic for the Taliban, are facing no credible 
alternative.
    When we see the insurgents using sanctuary and support from 
inside Pakistan, and they appear to be winning, it is 
understandable that Afghans, for reasons of personal safety, 
are reluctant to oppose the insurgents.
    I think the focus of Provincial Reconstruction Teams (PRTs) 
on militarized development doesn't achieve what it is intended 
to achieve. It doesn't meet core development objectives.
    Moreover, it is precisely the heavy involvement of the 
military in civilian affairs that is substantiating the Taliban 
campaign, which is framed as resistance to foreign forces. So 
thus, the military and the Afghan Government are caught in a 
mutually detrimental relationship in which both sides lose 
credibility, the military by association with a corrupt 
government, and the government by association with the foreign 
military.
    Now, I think General McChrystal's report is very 
insightful, and I think he is right about the importance of 
legitimacy and the population security; however, I think we 
have got to realize that international military forces have a 
limited capability to address some of these issues. First of 
all, building Afghan national security forces is an extremely 
long-term endeavor, and we know there are major problems with 
the police force. Of course, they are the most critical 
elements of a counterinsurgency campaign.
    Also, there is danger in the integrated--the emphasis on an 
integrated approach in which international forces increasingly 
engage with Afghan civilians. I think this plays into insurgent 
hands. I think it attributes unrealistic capabilities to 
soldiers. I think it is burdening them, perhaps, with 
responsibilities that they cannot meet. And I think it doesn't 
address the key and the core issues.
    I would suggest that what is required is a greater civil-
military delineation, greater political efforts that lie 
outside of the core competency of the military. And that is the 
fundamental point, that this is a political problem. In fact, 
insurgency is not itself a disease, but the symptom of a deeper 
disorder; namely, a government that is perceived as 
illegitimate, self-serving, and that has excluded certain 
groups and communities based on various reasons such as tribal 
affiliations, ethnicity, and other factors. It demands a 
response that is political. It has got to be indigenous, 
inclusive, and address injustices and legitimate grievances.
    Just some brief remarks about how we might change the 
strategy going forward to deliver better results, and I think 
there are probably five points.
    Firstly, we should acknowledge the limits of outsiders in 
effecting change in Afghanistan, given the enormous complexity 
and the scale of the challenges. But what we should do is 
empower Afghans to address these challenges; in other words, 
focus on capabilities and building robust institutions, not 
just delivering results.
    Secondly, empathize with Afghans. I think if we do 
effectively empathize, as I said, considering the context, the 
history, the culture of Afghanistan, it leads to the conclusion 
that we should reduce foreign military involvement in civilian 
affairs and prioritize interventions which reflect Afghan 
interests and preferences.
    Thirdly, after determining what is possible, develop 
strategies that fit the purpose, devote sufficient resources 
and political will for accomplishment. Half measures, whether 
it is police reform, governance development, are likely to do 
more harm than good. We need to recognize the need for regional 
political strategy, too.
    Fourth, address obvious flaws in aid delivery. It 
astonishes me that more has not been done to address very 
rudimentary problems in the system of aid delivery, such as the 
widespread use of contractors and consultants, the parallel 
mechanisms, and the lack of transparency.
    Finally, I think, as some of the panelists here suggested 
early on, we should not expect swift results. This is an 
incremental progress. It requires realism combined with long-
term commitment and a genuine political resolve.
    Dr. Snyder. Thank you, Mr. Waldman.
    [The prepared statement of Mr. Waldman can be found in the 
Appendix on page 64.]
    Dr. Snyder. We will put ourselves on the five-minute clock 
here. I will ask one question, and then we will go to Mr. 
Wittman.
    I think General Barno discussed this some in his statement, 
and I asked this a week or two ago in the full committee 
hearing on Afghanistan. When we made the commitment and gave 
President Bush the authorization in mid-September of 2001 for 
military force, we all knew what that was going to mean with 
regard to Afghanistan, and some pretty strong statements were 
made about following through after a military operation. What 
is our moral responsibility to the Afghan people in all of 
this?
    General McCaffrey, we will begin with you.
    General McCaffrey. Well, one is always tempted to go back 
to former Secretary Powell's statement that if you break it, 
you own it. I must admit, I have never entirely bought that 
policy. I think there are points in time in foreign policy 
where we intervene for our own purpose and don't pick up the 
follow-on implied responsibility of turning the place into 
Switzerland.
    Nonetheless, here we are 600 miles from the sea, 32 million 
Afghans, this giant, wild country, much of it rooted in the 
14th century. We have made promises, explicit and implied, and 
something that greatly bothers me in the current debate, the 
notion that we are there and can't stay unless we appreciate 
the nature of the chief of state bothers me. We are there for 
U.S. national interest reasons, not because Karzai is corrupt, 
good, bad, or whatever.
    But there is no question in my mind as we look at the 
situation now, we have told the region, our NATO partners and 
the Afghan people, we are going to try to create a situation 
where you won't be an international pariah, where your 
agricultural system and your road network and the fundamentals 
of health care will work, and we will then withdraw and 
increasingly turn this operation over to you. I think there is 
a moral responsibility at this point. It would be an 
unbelievable disaster in the short run, meaning 10 years or 
less, if we withdrew and left the population to the tender 
mercies of Taliban retribution.
    General Barno. I think one of the unique aspects of 
Afghanistan is that we know what failure would look like. We 
know what Taliban rule looks like. We know what it means for 
women. There are six million children going to school today. 
About a third of those are Afghan girls. There were zero during 
the time of the Taliban. We know what it means for justice. We 
watch people be beheaded in soccer stadiums for offenses that 
were modest by Western standards. We watched the Bamyan Buddhas 
be destroyed by the Taliban, some cultural artifacts that date 
back centuries.
    I always felt during my time in Afghanistan that that 
inoculated the Afghan people against the Taliban's return. 
There is very little interest to no interest across Afghanistan 
to see the Taliban come back. We know exactly and explicitly 
what the outcome is going to look like should that occur.
    Moreover, those who aligned with us, those who sided with 
us and are working with us, from Kabul all the way down to the 
smallest village out there, are going to pay that price. So we 
have a fairly clear picture in front of us of what the 
downsides of withdrawal and what the downsides of failure to 
achieve our objectives look like, and we have to keep that 
crystal clear in our minds.
    Ms. Cole. In 2001, whether or not we were trying to fulfill 
a moral responsibility or a national security responsibility, 
today the facts on the ground suggest that people, Afghans, 
nongovernmental organizations, many of whom are manned by U.S. 
nationals, and our civilians on the ground are now at great 
risk. They have chosen, by aligning themselves with us in this 
fight against the Taliban and others in Afghanistan, to choose 
a side. So we have moral responsibility now to carry out at 
least some minimum standards, which I have tried to lay out 
here today, for how the Afghan Government itself can protect 
its population in the future. But we have a lot of exposed 
people on the ground right now.
    Dr. Snyder. Mr. Waldman.
    Mr. Waldman. Well, I agree with some of the remarks that 
have already been made. I think that at the time of the 
intervention, the fact that it did take place as it did and the 
promises that were made were quite extensive to the Afghan 
people, and I think there is a duty on those nations who were 
involved in that intervention to seek to meet those 
expectations. And I think it is clear that in many respects we 
are failing to do so, and in some very obvious ways.
    I mean, it astonishes me that there is so little 
transparency in terms of the delivery of international aid. It 
is very difficult to critique it and identify what is going 
wrong and then put it right. It is an elementary problem that 
could be solved if there was sufficient political will.
    I think there is a moral responsibility to try to improve 
the lives of Afghans to the extent that it is possible, given 
the widespread poverty and hardship that many Afghans face, but 
it doesn't seem to me that we are taking the elementary steps 
to do that.
    On a wider level, I think it is clear that we need to 
address the political problems, and I think the approach of the 
international community has supported a system that thrives on 
patronage, on impunity, on nepotism and corruption, and it is 
our duty to try to address some of those problems. Of course, 
there are limits as to what we can do. We should be clear and 
realistic about what we can achieve, focus on those areas, and 
show genuine commitment to improve the situation.
    Dr. Snyder. General McCaffrey, if I understand your point, 
and I think I agree with it, which is we had every right to 
take out the Taliban and al Qaeda and then walk away 
militarily; but we made very strong statements that we would do 
a lot of rebuilding. We had every right to break al Qaeda and 
the Taliban in Afghanistan, if I understood your point, but it 
was very clear to a lot of us in those early days that we went 
far beyond that in terms of rebuilding the country, and I think 
that is where the moral responsibility comes from.
    General McCaffrey. Exactly, as well as other tiered 
responsibilities we have explicitly to NATO. Personally, I 
would argue it would probably be the end of NATO if we 
unilaterally and precipitously changed this strategy, never 
mind its impact on Pakistan.
    But at the people level, it still makes me wince every time 
I hear a rifle platoon leader, Marine Corps, U.S. Army, 
promising the locals we will be there for them to establish 
continuing security. Clearly they are not in a position to make 
that kind of compact, and neither is the military commander on 
the ground or the U.S. Ambassador. That is the job of this 
august body and the Administration. That is where we are: Will 
we honor our commitments, yes or no?
    Dr. Snyder. Mr. Wittman for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I want to thank the panelists for joining us today.
    Is a stable Afghanistan critical to U.S. interests, and in 
that context, is it also critical to Pakistan security 
interests? And if so, is the strategy laid out of a full 
counterinsurgency effort by General McChrystal the right way to 
go to secure stability in Afghanistan? And how does that relate 
to securing the future interest of Pakistan?
    General McCaffrey. You know, I think that is the most 
painful question that you can pose in this debate. I think one 
can make a sound argument that Afghanistan is not a vital U.S. 
national security interest. If you start from where we are now, 
and you look at the secondary and tertiary effects of 
withdrawal, particularly Pakistan, and our credibility in much 
of the Muslim world, certainly to include the Saudis, you can 
get closer to it, but at the end of the day, I can remember 
being a lieutenant colonel at the U.S. Army War College that 
involved analysis of whether one should ever intervene in 
northwestern Afghanistan and Pakistan, and I reached the 
concluding that axiom one for the United States Army is: Don't 
carry out any military operations where you can't walk down to 
the sea and a Navy ship. We are a long way from the coast. We 
have to get there through a fragmented, incoherent Pakistan. At 
the end of the day, we are looking at 32 million of the most-
suffering people on the face of the Earth who have nothing that 
is vital to our economy, political system, social order, nor 
are they a central or long-standing ally. We are where we are.
    But I do believe the question you posed is the one the 
American people are going to ask themselves: If our current 
burn rate is $5 billion a month, if it will go to $10 billion a 
month by next summer, which assuredly it will, if we are going 
to start losing 1,000 killed and wounded a month--and, like 
General Barno, my son just came out of combat in Afghanistan a 
year ago--then you have asked a legitimate question which we 
have to address.
    Mr. Wittman. Mr. Barno.
    General Barno. It is a very tough question. And again, to 
harp back to General McCaffrey's initial comments, if we were 
standing on the high ground in Kabul in December 2001 before we 
had made commitments, we would probably look at this in 
different ways and have different choices and options. Those 
second- and third-order effects on Pakistan, on NATO, on our 
commitments in the region would not be there yet. We might have 
made different choices then, but we are where we are today.
    I do think there is a growing recognition, in retrospect, 
that this region, Afghanistan and Pakistan in particular--and 
we should talk about how this plays in India, but Afghanistan 
and Pakistan in particular-- instability in this region is 
going to cause some very serious trouble for the United States 
down the road.
    Is the region's stability critical to the United States, is 
it a vital national interest? I think it approaches that 
because of the prospects for, once again, the region becoming a 
hotbed of Islamic terrorism potentially that has some access to 
nuclear weapons. That is a worst-case scenario, but it is not 
an impossible scenario by any stretch of the imagination.
    So we are now committed. We are seen with our major 
military alliance, NATO, as having a commitment to see this 
through to success. There is great damage that is possible 
there if we fail, but there is also the tremendous risk if this 
part of the region goes unstable, what does that mean to the 
national security interest of the United States. For that 
reason alone I think this may be a vital decision for us.
    Ms. Cole. The United Nations Office on Drugs and Crime 
reported this month that five times as many civilians among 
NATO nations are being killed as the number of casualties that 
we have taken in Afghanistan among coalition forces. If we 
think about a narco-state with al Qaeda sitting over on the 
other side of the border in Pakistan, I think that answers the 
question. I don't think we can afford to have an unstable 
Afghanistan in a very, very bad neighborhood supplying 92 
percent of the world's opium.
    I also think that it is useful to take a step back and ask 
ourselves--because we constantly seem to forget that five 
decades of these missions have shown us that we can stabilize 
nations: Cambodia, El Salvador, Sierra Leone, Rwanda--many, 
many places that have been completely torn apart and shattered 
where there have been insurgents involved and al Qaeda and 
other terror cells involved, we have managed to stabilize. We 
can do it again. It is going to take a lot of effort and time, 
as everyone said here, but it is not a lost cause.
    Mr. Waldman. Congressman, I agree with the other panelists. 
There are questions about the extent to which Islamic 
terrorists may or may not operate inside Afghanistan, given the 
fact that they are largely operating in northwest Pakistan.
    As for the stability of the region, clearly that is in 
America's national security interests. I think the fragility of 
the Pakistani regime can sometimes be overexaggerated, and they 
have shown in the past the ability to retain fairly sturdy 
state institutions and cope with insurgencies despite obvious 
difficulties in doing so. I don't believe that the Pakistani 
state is in danger of collapse.
    If I may, I would just respond to a question about whether 
counterinsurgency is a correct response in Afghanistan. I think 
counterinsurgency is the correct response, but whether we have 
the design right and whether we have the tools for its 
implementation is another question. I would submit the answer 
to that is no. Why do I say that? Well, first of all, I think 
it assumes that soldiers, American soldiers, have a capability 
and a wide range of technical sectors beyond what they are 
trained for. I think it assumes if you deliver rapid material 
progress in rural areas in Afghanistan, then you will win the 
hearts and minds of local people. As I said earlier, I don't 
think that is the case.
    I think, secondly, it assumes a vast and detailed knowledge 
by soldiers of Afghan society. And actually the demands placed 
on soldiers in the counterinsurgency manual are enormous and 
are rarely met even by civilian workers, who stay there for 
many years and speak the languages. The manual speaks about 
armed social work. The real question is the extent to which 
this is possible and the extent to which this promotes 
stability at the local level, and actually, you know, deals 
with the insurgents.
    Finally, I think it also assumes that greater civil-
military integration is possible and delivers results, and I 
think it is clear that the insurgents thrive on this overlap. 
This is good news for them because the more they can portray 
civilian affairs being dominated by the military, the better it 
is for their nationalist Islamist campaign against aggressive 
invaders.
    Dr. Snyder. Mrs. Davis for five minutes.
    I think we are going to have some votes around 3:00. We may 
want to try to get everybody in, which may be impossible.
    Mrs. Davis. Thank you all for being here.
    I would like to follow up, because this is an area I really 
have grappled with. It is a little bit of nation building 
versus national security.
    I think clearly the American people right now are 
conflicted as well, certainly not with the kind of information 
that you all have expressed today, but nevertheless the fear 
that it would be years and years before and generations before 
you are able to actually turn the situation around, and the 
extent to which that is truly in our national interest.
    But as you all speak, and certainly Mr. Waldman as well, 
security has to be at the forefront of all of that. I recall 
one of my times being in Afghanistan, remembering some of the 
non-governmental organizations (NGOs) saying to us that our 
ambassadors or people from the State Department have to travel 
with military support, but they basically use their 
relationships that they build as that kind of support because 
clearly they are unable to do that.
    Help me with this issue because we are continuing to raise 
the issue of the role of women and whether or not we are 
abandoning them in any way if we move into negotiating or how 
we are able to have some kind of reconciliation in Afghanistan. 
We want to focus on them. Where does security lie, because 
clearly the military has paved the way for many efforts in 
Afghanistan. There is no doubt about that. Yet on the other 
hand, I understand that it is perhaps overly ambitious for us 
to believe that all of those efforts with the military and 
civilian capacity both are not necessarily in the best--are 
picking up the best interests of the Afghan people or the 
region, assuming that Pakistan we are talking about as well.
    Ms. Cole. I think, like with governance and all of these 
other issues, we have to enlarge our view of security. Security 
is not just something that military forces can bring to the 
communities of Afghanistan. In the United States, we think of 
security as school guards and bank guards and people who 
protect judges. It is not just a question of military or police 
forces, border guards, people who are looking at money 
laundering and bank operations. In that sense the debate about 
troops is a very, very important debate. But we have to think 
about the other assets that we have to bring to bear, including 
with the Afghans, including putting women as police officers in 
certain places, or as school guards, which we have shown we can 
do in Liberia.
    This question of just having soldiers that are armed to the 
teeth engaged in combat operations has us thinking, I think, 
too narrowly. We have people who know how to do witness 
protection in the Marshals Service, and we have people in the 
Department of Justice who know how to train police and do 
police mentoring and development. We have forensic 
investigators who look at money laundering.
    This is much more than just the military. If we think about 
it that way, I think we can arrive at actually producing 
security in a much more efficient way.
    Mrs. Davis. General Barno.
    General Barno. Two thoughts. One, on the issue of security, 
I think you are correct; it is not a sequential problem of 
security and then reconstruction and development. It is really 
concurrent. These have to go on in parallel with each other. 
Based on the amount of security, or lack thereof, you will have 
a greater or lesser military presence and a greater or lesser 
civilian presence. But I think clearly because of the security 
dynamic, you will always have to have these elements working 
together. I disagree a bit with Mr. Waldman on that.
    You also alluded to what does it mean to women if we 
negotiate with the Taliban. That is a paraphrase of what you 
were saying. I think we have to be aware, in my estimation, 
from a policy standpoint, having the Taliban be part of the 
government in Afghanistan is not where this is going. It is not 
the objective. Having reformed Taliban, ex-Taliban, Taliban 
that have rejected violence, put down their weapons and joined 
the political process, that is a very different outlook; the 
small T, if you will, the individuals, not the movement. That 
is where we have to be careful that we don't inadvertently send 
this message that we are willing to negotiate with the Taliban 
because we are trying to exit, as opposed to we are willing to 
see these former Taliban fighters lay down their arms and 
become part of this political process.
    Our goal when I was there was not to kill the Taliban 
collectively in the big strategic picture, it was to make the 
Taliban irrelevant, make no one want to become part of the 
Taliban, no one aspire to the Taliban. That takes a very 
nuanced approach of many different elements other than just 
security and military forces.
    Mrs. Davis. Mr. Waldman, quickly may I have a response from 
you?
    Mr. Waldman. Sure. In terms of security, it really varies. 
It is a very serious situation at the moment. On average, every 
three days two Afghans are executed for having any association 
with the government or military forces. I think that underlies 
the concern about integration of civil military affairs. But it 
clearly is the critical issue. Of course, there are some 
obvious factors for the current situation. The complete failure 
to really reform the police, lack of resources and political 
will, I think, are largely responsible for that. That certainly 
contributes to the current situation. Less than 10 percent or 
around 10 percent of the police are capable of operating 
independently.
    But as has been said by Ms. Cole, the national security is 
much broader, and, of course, really security will be achieved 
if there is a proper political strategy which is indigenous, 
which is inclusive, which addresses some of the fundamental 
injustices and the grievances that are driving this conflict. 
And as I said, I think this is essentially an Afghan political 
conflict, and it requires that political solution to be brought 
about. Of course, as I said earlier, there are some things we 
can do to help make that happen.
    In terms of women, you are absolutely right to raise this. 
This is a very serious issue. When one travels the country and 
talks to Afghans, it is very clear that they want their girls 
to go to school. With two million girls in school, it is a 
universal desire to see that happen, for women to be able to 
work and have rights and freedoms and rights that men have. It 
is alarming that the Shia law was passed recently, as you are 
probably aware of, and I certainly think one has to ask about 
the commitment of the current administration to women's rights.
    Mrs. Davis. Which is doubtful.
    Mr. Waldman. Yes, it certainly is. We have yet to see real 
substance behind their work to try to empower women and support 
their opportunities and rights.
    But you are also right that there is concern about women's 
rights as negotiations move forward. Of course, reconciliation, 
truth and reconciliation is essential in Afghanistan, 
particularly after the decades of war that it has undergone. 
But on the one hand, there is reintegration. As General Barno 
mentioned reintegration efforts, this is low-ranking, perhaps 
midranking fighters, and bringing them in, requiring them to 
disarm and so on, and integrating them into society. There is 
another set of ideas and approaches which concerns political 
engagement and accommodation with more senior members of the 
Taliban, and in that respect I think a great deal of caution is 
required, and indeed the essential rights reflected in the 
Afghan Constitution should be respected.
    Mrs. Davis. Thank you.
    Dr. Snyder. Mr. Rogers for five minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Listening to the discussion about the possibility of the 
Taliban becoming a dominant force again, obviously I find what 
that--the implications to women would be abhorrent to me.
    I was listening to Mr. Waldman and Ms. Cole talk about what 
I consider nation building. I don't think our military is 
required for that.
    What I am particularly interested in from the two generals 
is what do you see as realistic goals and objectives for our 
military in the short term, and by that I mean in the next two 
to three years? And what is unrealistic? I think some of the 
things that we are talking about long term here, I am not sure 
that our military needs to be used for that.
    So General McCaffrey mentioned, and I think he is accurate, 
that this is a 14th century civilization, and apparently a lot 
of folks there want to keep it that way, and that is fine. But 
what can we do with our military that is realistic? That is the 
number one question.
    And secondly, is it practical for us to shift a lot of our 
troop strength to the border, particularly on the Pakistan 
side, and let Afghanistan do whatever Afghanistan is going to 
do as long as it doesn't disrupt the security or stability of 
Pakistan?
    General McCaffrey.
    General McCaffrey. I listened to that question with a great 
deal of sympathy. And I don't profess--several people on this 
panel have enormous personal experience on the ground in 
Afghanistan. I am in and out of there periodically and listen 
very carefully, particularly to our own battalion commanders on 
the ground.
    A couple of comments. First of all--I think General Barno 
said it--we have to write down and agree on what we are there 
to achieve. And I think you can form a pretty good argument, we 
are not there to fight al Qaeda. National Security Advisor 
talked about 100 al Qaedas being in Afghanistan. That is a 
nonnumber. If you want to fight al Qaeda, that is Tier 1 JSOC, 
that is political, that is international, that is financial 
management, arguably better there in Afghanistan than in 
Frankfurt, London, Hamburg and Indiana, which is currently 
where we worry about them.
    I think, secondly, you can say we are not there to fight 
the Taliban. And indeed I would argue the Taliban are not 
across the border; they are also across border because there 
are 40 million Pashtuns on both sides of the Durand Line. But I 
don't think we are there to fight the Taliban, and had the 
Taliban not acted as a sanctuary for the disastrous attack on 
the United States, we wouldn't be in Afghanistan today. We 
would have left it the way it was.
    I don't think we are there to free half the population that 
are women. The plight of women in that region is abysmal. As we 
went in, I asked one of our intel officers, a U.S. Army full 
colonel woman. She said, you know, essentially better to have 
been a donkey than a woman under the reign of the Taliban. And 
that situation, particularly in the Pashtun south, continues. 
And by the way, it isn't Shia restrictions. That is tribal, and 
that is cultural and historical.
    So what are we there for? It seems to me that we are there 
to try to create--we haven't made this explicit--a state that 
is operational, has its own security forces and does allow us 
to withdraw.
    Mr. Rogers. Can that be done in three to five years?
    General McCaffrey. I personally think this is a 10- to 25-
year job. The first two to five years may involve a lot of 
combat, but essentially it is a long-term commitment. And 
building a police force is an example.
    I think the other thing we ought to be realistic about is 
USAID is 3- or 4,000 people, not 15,000. They don't have the 
U.S. Army Corps of Engineers' capability to run large projects. 
I am still appalled that we are not in Afghanistan with an 
engineer two-star general, 500-person staff, and 3 or 4 U.S. 
Army engineer brigades hiring thousands of Afghans and 
mentoring and tutoring them. But I don't believe that many of 
these civilian agencies in the short run or the medium term can 
operate in Afghanistan. That is one of the perils of the U.S. 
Armed Forces is we can do it. We can do neighborhood councils, 
call-in radio shows, women's rights groups, sanitation projects 
in downtown Kandahar. That is what is in the short run our only 
option.
    I do not believe--in fact, I differ from other panel 
members possibly on this. I do not believe in the short run 
that what we are talking about in Afghanistan is witness 
protection programs. There is no--at district capitals there is 
no operational police force, no court system, no jail. Nothing 
is there except raw power.
    And I also don't even--I wouldn't characterize this as an 
insurgency. That implies there is a central government against 
which we are fighting, as opposed to seeing this more likely as 
an ongoing tribal ethnic war for the control of that part of 
the world, though I think in the short run, it is armed power 
with multiple purposes and a considerable amount of U.S. 
resources.
    Mr. Rogers. Thanks. My time just expired.
    Dr. Snyder. Ms. Pingree for five minutes. And then we will 
do it fairly strictly on our five minutes since we are going to 
have votes here.
    Ms. Pingree. Absolutely. Thank you, Mr. Chair. And I will 
try to be brief here.
    I appreciate everyone's testimony on this complicated issue 
that we are spending a lot of time trying to sort through as we 
think about what should happen next, and I really appreciate 
all of your perspectives. I will start with Mr. Waldman, and if 
anybody else agrees on this particular point, I would be happy 
to hear from anyone else's perspective.
    You brought up this issue that I think is often pointed 
out, but very difficult for us to think about in terms of our 
military involvement because we like to think about a military 
solution, and you suggested this point that people say perhaps 
our very presence, the paradox of our presence is the problem. 
So when we think about committing to more troop strength, even 
further involvement of our military to deal with the chaos 
there, we often think about the other side, you know, maybe our 
presence is the problem.
    So I just would like to hear you talk about that a little 
bit more, particularly in light of the fact that even you said 
on the other hand, many of the people doing civilian aid and 
the NGOs there are corrupt, there is not enough transparency 
around that. So while we can talk about philosophically, well, 
we will put more people in the country to rebuild the 
institutions there and really get back to the kind of place 
where perhaps there could be a major shift in this power 
struggle, we haven't been successful at that either.
    So can you talk a little bit about something that I think 
for many people is a dramatically different--difficult concept 
to swallow, but perhaps is exactly what we should be doing?
    Mr. Waldman. Yes. Thank you.
    I think that what you have indicated, though, is correct. 
There is this problem that in some ways international forces 
are part of the difficulties that we are seeing. And, of 
course, on the other hand, a rapid withdrawal would--could be 
extremely destabilizing. So I think it needs--it needs to be 
dealt with very carefully.
    I mean, I think, first of all, rather than treat numbers, 
the question is on the one hand, what are the troops doing, and 
how are they operating? Of course, that means minimal force. We 
have seen quite a significant number of casualties, and they 
are coming down now. And I think General McChrystal can be 
acknowledged to have played an important part of achieving 
that. But keeping casualties very low is crucial and making 
sure redress to Afghanistan civilians when they suffer through 
operations is inevitable in that sort of situation.
    And then I think, as you have indicated, we have got to do 
better at the state building, and I would suggest that actually 
you find that the real problem--actually NGOs take only a 
limited proportion of the amount of aid going to Afghanistan, 
but by far a bigger proportion of it is run through foreign 
government agencies, and there, I think, is a lot we could be 
doing better.
    For a start, the Foreign Service personnel have actually 
got to be engaging with the local people, getting out there, 
not living behind fortified compounds, and there has got to be 
better understanding of Afghan society so that we can really 
respond to Afghan needs. But at the same time, make sure we 
don't--we can't do everything, and we have got to be clear 
about what is possible and focus on that. The National 
Solidarity Program is an example where, by focusing on 
communities themselves that traditionally in Afghanistan have 
great capability to provide for themselves, that you can 
really--you can start to see progress.
    But I also think--I come back to this point--that 
ultimately the real solution here is going to be a political 
one, and it requires us to engage on a political level and 
address some of these problems and concerns. I mean, I think 
the excessive concentration of power in the hands of a limited 
number of people of dubious records, let us put it that way, is 
one of the major problems. I think we also need to address the 
imbalance of power between the center of government and local 
government.
    But again, trying to support the development of just some 
basic functioning representative institutions, these are the 
sorts of steps that really could see--we could start to see a 
solution in sight.
    Ms. Cole. I think the question of whether the United States 
troops are drawing attack and, if they were gone, that they 
wouldn't have a problem is maybe not the right way to look at 
this. I mean, if you think about post-9/11, the U.N. has been 
attacked, the International Committee of the Red Cross has been 
attacked. Humanitarian workers are constantly under attack. The 
Brits, all of our other allies are constantly facing attacks. 
So it is not a question of removal of our forces, it is a 
question of winning the peace. And I think that we need to 
shift and think about that a lot more.
    Dr. Snyder. Mr. Platts for five minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    I first thank all of the witnesses for your testimony, 
obviously great expertise that you bring to our committee, and 
we are grateful for that.
    Two things. First, a quick follow-up on my colleague's 
question on the issue of Afghanistan being a vital national 
interest. And I think--I look at it in the sense of how we 
would have looked at this country in 1989 when we helped the 
Afghanis, in essence, throw the Soviets out. And if asked--in 
fact, I think Congress was asked in 1989 is it of national 
vital interest to be there, and the answer was no. And we, in 
essence, walked away, and we learned 12 years later, well, 
yeah, it was, when it came to the lives of 3,000 American 
citizens that were taken on 9/11, that it is going to be 
difficult, but just standing back and watching what happens was 
not in the best interests of our citizens.
    So I think it goes to where we are today, unless we want to 
repeat that era and allow it again to become a safe haven for 
those who want to take American lives, it clearly is of vital 
interest. So it is not going to be easy how to ensure that that 
doesn't happen going forward from where we are today, but my 
specific question actually is regarding the comment of the 
military presence is one of the problems for us in Afghanistan.
    Having been in Afghanistan five times now, and one of the 
most informative visits I had was several years back in 
Jalalabad where our PRT team, civilian USAID officer working 
hand in hand with an Army lieutenant colonel and just doing 
amazing work. And in our time with them, we met with the local 
mullahs that gathered, tribal leaders that came in and we met 
with. And it was clear what a positive relationship that both 
the USAID officer had and the female Army lieutenant colonel 
had with those local leaders and the advancement they were 
achieving there.
    I don't know how we do the development in the environment 
we are in without that partnership, hand in hand, because I 
wouldn't want that USAID officer out there without the military 
security to protect. I think it is more how we approach it. So 
I guess it is really, Mr. Waldman, how do you do the 
development in the environment today without the security that 
the military brings to those USAID and other officers?
    Mr. Waldman. Thank you. I think that is an excellent 
question, and it poses real challenges for aid workers and 
civilians that are operating in development in Afghanistan.
    I think we do have to at some point consider the fact that 
of the 26 provincial reconstruction teams that exist in 
Afghanistan, in the provinces in which they operate, there has 
not been a diminution of insurgent activity. In fact, it has 
increased.
    Now, I am not saying there is a direct relation, but we 
have to, I think, ask ourselves whether the PRTs are able to 
achieve stability objectives, and I think the answer to that is 
no. And as I said, I think the reason for that is because it 
doesn't take into account the complex, the very complex and 
diverse, rich context of Afghanistan, the history of this 
resistance to outsiders, that culture, that conservatism and a 
number of other factors, including the action of insurgents.
    Mr. Platts. Is it possible that how we have resourced them 
has played an important role, that we have a team there, but 
what we actually give them on the development side?
    Mr. Waldman. No, I don't think that is the problem. In 
fact, I think the problem is that because they exist, a lot of 
the aid has gone to those PRTs. And, in fact, what you are 
doing is you are breaking the accountability of Afghan leaders 
to the Afghan people, because there is a parallel foreign 
mechanism that has been inserted into the society. So what the 
real focus is to build Afghan institutions----
    Mr. Platts. If I can ask on that real quickly. In Pakistan 
I know USAID is doing some development work that it is in the 
arena of counterinsurgency, but where it is actually done under 
the name of the Pakistan Government or in partner with. So we 
are not the lead. Is that what you think is a better approach 
not just in Pakistan, but in Afghanistan?
    Mr. Waldman. Well, I think really what we should be doing 
is the military should focus on security issues. And I think 
the military have some legitimacy in that area, and I think 
Afghans expect them and actually want them in many cases to do 
that, to focus on that issue.
    But actually civilians need to be the primary--the central 
channel for civilian activities, and actually there are a 
number of mechanisms. I mean, first of all, you have, of 
course, Afghan NGOs, and many are desperate for money, for 
funding to actually operate. And in areas in the south and 
southeast, we found--who I used to work for--sorry. My 
apologies.
    Dr. Snyder. I don't think we have time, unfortunately, 
right now for an augmented answer that begins ``first of all.'' 
But I apologize. We will come after a series of votes.
    Mr. Spratt, I want to give you a chance before the votes, 
and we will come back afterwards.
    Mr. Spratt. Rather than keeping the whole group here, I 
will----
    Dr. Snyder. We have time.
    Mr. Spratt. Just a quick question.
    General McCaffrey in particular, to pick up where you left 
off, if our original purpose in going to Afghanistan was to 
crush al Qaeda, to exact a full measure of retribution upon 
them and to render them ineffective, have we strayed from our 
original objective? Have you said we set the wrong objectives 
and raised the bar unnecessarily highly in Afghanistan?
    General McCaffrey. Again, I--back to the fundamental 
challenge we face is we are where we are today, but I think the 
original notion was one of anger, retaliation, vengeance, all 
of it appropriate. Afghanistan deserved to be part of that 
target of reaction.
    We essentially achieved our initial purpose to some extent. 
I think it was a strategic surprise of immense proportions that 
the U.S. Armed Forces struck at them 700 miles from the sea, 
7,000 miles from the United States, something I think had 
enormous heuristic benefit for al Qaeda globally deployed.
    By the way, we ought to take into account we have killed or 
captured much of the senior al Qaeda leadership. Indeed there 
is an argument that 10 years from now, our principal threat 
will be Hezbollah, not al Qaeda.
    But I think we have been a force in search of a mission, 
and the sensible mission, in my viewpoint, if the American 
people and the Congress and the administration support it, it 
would be to build a viable state over the decade to come. And 
we can do that at significant cost, probably 60 billion to 80 
billion a year, and another 30- to 40,000 killed and wounded. 
We would probably achieve that objective.
    Now, one caveat, and I think Mr. Waldman and I would not be 
on the same side of the sheet on this one. I have over the last 
30 years of public service been astonished at the courage and 
the creativity and the language skills of the international NGO 
community. They are beyond belief, to include Oxfam. But there 
is a handful of them.
    Afghanistan is big muscle movements, it is 30 million 
people. Nobody moves in the south except the Marine rifle 
company. Nobody is out in the east except a PRT. I think these 
have been huge payoffs. They simply couldn't exist. They would 
be blown away in the wind within an hour of us extracting the 
military component.
    We still have a choice, but I don't think there is a choice 
of waving a magic hand and saying, we can turn this over to 
civilian agencies. We can't turn it over in State Department, 
Treasury, Agriculture. They can't do it. They won't do it. When 
I asked the agricultural guy in a PRT, what are you, an Iowa 
farmer, what is your background, he will invariably say, sir, I 
am an artillery lieutenant colonel, I retired a year ago. And 
he gave me a 2-week course, and I am over here teaching them 
how to plant rice.
    I think that is worth talking about, whether that is the 
appropriate thing to do. But in the short run, that is reality.
    Dr. Snyder. We have no time left on the votes. We better go 
vote. What we are going to do is we have about a half hour of 
votes, and then there will be a motion to recommit. So we will 
come back right after that vote before the motion to recommit. 
We will have the time for debate, and then we will probably 
have another half hour of questions for anyone who wants to 
come back. It will be about a half hour or so for the 
witnesses.
    [Recess.]
    Dr. Snyder. Well, that didn't quite work out like we 
thought it would, did it? I apologize for that. They changed 
the order of votes and didn't have a vote we thought we were 
going to have. Mr. Wittman has a conflict, and I appreciate 
your patience. You have all been public servants for a long, 
long time, and we have asked you to go further once again than 
we thought we were going to.
    I want to ask, and I may direct this to General McCaffrey 
and General Barno, and the other two can feel free to join in 
also if you would like. General McChrystal's report, at least 
the unclassified version that we read publicly, he mentions the 
12 months several times. I would like you, General McCaffrey 
and General Barno, if you would comment on, without my leading 
you down a road, when you saw the 12-month number, what does 
that mean to you in this report in terms of what we need to be 
thinking about as we are making our decisions looking ahead?
    General McCaffrey. Part of it may well be that General 
McChrystal, having served here, understands the dynamics of 
Washington as well as he does of the battlefield. I personally 
can't imagine that 30 days, 60 days, 90 days, 180 days one way 
or another actually makes much of a difference, but he's also 
understanding it takes us normally 2 years to make a 
significant policy decision in this Capital, as my own rule of 
thumb, and it takes a year for the military to make substantial 
reinforcements of a war that is in a 7,000-mile away theater.
    So I think his assessment on the ground, and I will 
probably have a better informed viewpoint by the end of 
November, is that the tactical situation deteriorated 
remarkably. You know, the currently serving unbelievably 
talented general officers we have got in the war zone don't 
like me using this language, but we are seeing battalion-size 
units of the Taliban, 200, 300, 400-man outfits who are doing 
reconnaissance for 30 to 90 days of a target and are then using 
rockets, indirect fire, mortar, fire maneuver. It is 
astonishing. Some of them are using electronic intercept. They 
are wearing REI camping gear. They are a remarkably dangerous 
force. I have warned several of them about our own tactical 
arrogance. We are going to lose platoon and company-size units 
if we don't watch our step here in the coming year.
    So I think General McChrystal, who is probably the best 
fighter that has emerged from the Armed Forces in 25 years, was 
looking at that situation and said you had better get some 
resources to me rapidly, a conclusion with which I totally 
agree.
    General Barno. I think in a way this goes back to my 
comment about the Taliban running out the clock, and they 
realize the clock in Washington is moving at a more rapid place 
than the clock in Afghanistan or Pakistan, even among our NATO 
allies in some regards, and I think General McChrystal is 
looking at that from the standpoint that the enemy is moving 
very rapidly. He has the initiative right now. He is doing 
offensively a great deal. He is getting to choose the time and 
place of his actions without a lot of constraints, and I think 
McChrystal in a sense of wresting that initiative back from the 
enemy, feels he has to do that in the next year or the enemy is 
simply going to be too strong for us to have the capability to 
turn this around.
    It also, I think, plays into General McChrystal's 
perspective that this is a strategy behind which after another 
year or so there may be inadequate public support to continue. 
So I think he sees the next 12 months as critical.
    Dr. Snyder. Now I am asking you to say what you think he 
meant, but let me put it this way: It would be a mistake for 
folks on this side of the dais to say 13, 14 months from now, 
well, it has been 12 months and we are still having problems. 
That is not the lesson we should take from the way McChrystal 
has phrased that language; is that a fair statement do you 
believe?
    General McCaffrey. Absolutely. I cannot imagine--I must 
admit I think Secretary Gates is one of the most remarkable 
public servants we have had in office in 15 years; however, the 
notion that we are going to make a substantial change in a year 
to 18 months strikes me as the inappropriate level of 
expectations. I still believe this is two to five years of very 
hard work, including some serious fighting, followed by a 
decade or so of nation-building activities.
    General Barno. I would generally agree with that. I think, 
as General McCaffrey pointed out, it takes a good bit of time 
to get those additional forces into the theater. So even if the 
decision was made today to add, let's say, five brigades of 
additional combat forces, you are not going to see those 
brigades for at least six months, perhaps longer than that. And 
it takes time, as we saw in Iraq, for those units to actually 
get on the ground, get established, and then begin to have an 
influence.
    In my judgment, the way I would look at this, is the next 
12 months is basically the time to stabilize the patient and 
then after that you are going to look at basically getting, you 
know, the patient back into full health and go on a 
counteroffensive to take the momentum away from the enemy, but 
you are not going to see a complete turnaround in this 
situation in 12 months by any stretch of the imagination.
    Dr. Snyder. Because I think you probably talked the most, 
General Barno, in your opening statement about framing this 
right for the American public so they understand it, we need to 
make sure that people understand this is going to be some hard 
fighting. Now, maybe things will go better than we think. 
Things could go more difficult than we think. But you are 
putting in a range, General McCaffrey, of two to five years. 
Maybe it will turn out to 18 months to 6 years. I mean we don't 
know. But that is part of the difficulty of fighting a war. I 
think it is important the American public be prepared for some 
uncertainty.
    Again asking you both to comment, but you have probably 
framed it in your opening statement, General McCaffrey, when 
you talked about--I think you said three basic options: Hunker 
down, drop back and re-evaluate where you are, or go ahead.
    How do you evaluate where we are at right now today?
    General McCaffrey. Well, the good news is in the short run, 
you know, if you fly over Afghanistan, which all of you in the 
room have done, and you saw it right after we got in there and 
you saw it today, there has been enormous change for the 
better. There is a road network emerging, there are 
institutions, there is a military academy, there is a physics 
lab in Kabul, court systems have started. So tremendous 
progress in some ways have occurred.
    The other tiny bit of good news is, and I remind military 
audiences, we have lost--the U.S. Armed Forces lost a brigade-
size unit essentially twice in Vietnam. We had divisions 
dismantled twice in Korea. We lost a field army, most of it, 
twice in World War II, at Bataan and the Battle of the Bulge.
    So there is no reason why we are magic out there in a rough 
world. In Afghanistan today it is hard for me to imagine a 
tactical disaster of any serious consequence. You can't overrun 
a U.S. Marine battalion with the entire Pashtun nation today. 
So that is the good news. The bad news is the situation is 
spinning out of control, and clearly the answer isn't military. 
It is a lot of things at the same time: legitimacy of the 
government, economic rebuilding, most of which ought to be 
agriculture.
    But those--one of our panelists mentioned witness 
protection programs. I mean those are the kind of things that 
are step 10 of a 10-step process, and we are still on step one.
    General Barno. I think I would agree with that. But I would 
also maybe take a step a bit higher and say I think the 
pervasive feeling in Afghanistan today is broadly uncertainty 
as they look at the international effort, and I think that is a 
debilitating perception because it causes people to have to 
judge based on not knowing what the U.S. military is going to 
do, not knowing what the NATO force is going to do, not knowing 
what the United Nations are going to do, not knowing what NGOs 
are going to do. They don't know who is going to be standing at 
the end of day out there, and they are having to make tough 
decisions without really seeing a clear path.
    So I endorse the thought that this is a deliberate 
decision-making process here in Washington, but there is also a 
need once that decision gets made to violently and aggressively 
and fully execute it and implement it as rapidly as possible in 
Afghanistan because there is a perception--every day that we go 
on with our process, as necessary as it is, there is a 
perception out there that we are wavering and we are looking 
for a way to get to the exits, and that I think is very 
dangerous to us in our overall objectives.
    Dr. Snyder. Thank you.
    Mrs. Davis for such time as she needs.
    Mrs. Davis. Thank you, Mr. Chairman.
    Again, thank you all for waiting through the votes. We 
certainly appreciate that. We know you have very full 
schedules.
    I wanted to just follow up for a moment because there was 
the article today about the Nawa area, and there has been a lot 
of discussion about whether or not troop levels even of 40,000 
is really what would be required. They mention the fact in this 
particular article--I guess this is the Post--of 1 to 50 ratio 
to the population, and that is basically what they tried to do 
in that area. They have had some success, but sometimes that is 
a fleeting success. It doesn't necessarily mean that it 
stabilized the whole area.
    So could you respond to that perhaps, General McCaffrey and 
General Barno, whoever would like to do that? I actually hate 
to get into a discussion of the exact number of troops, but on 
the other hand isn't what is truly required if we were actually 
going to be trying to change the projections that you would 
need so many more troops than that?
    General McCaffrey. Well, there are probably two different 
aspects of that very legitimate question. One is I personally 
don't buy algorithms that are fixed such as 1 to 50. I think 
some of that is nonsense. The Brits ran a lot of these places 
with five smart Oxford boys who studied Greek and used native 
levies to, you know, achieve balance among the tribes.
    My own view would be, and I think McChrystal's report is 
focussed on this, the only center of gravity of the struggle in 
Afghanistan is building the Afghan security forces, along with 
jump-starting the economy, social institutions, political 
institutions. But at the end of the day it is the Afghan 
National Army and the police. The police is a 15-year job; the 
army is a 5-year job. You can't do it overnight. You have got 
to get officers, sergeants, equipment, training. They have got 
to have their own helicopter lift force. The Afghan National 
Security Force is the answer. I do not think the notion that we 
are going to embed U.S. Army and Marine rifle platoons in 
Pashtun villages is the way we are going to turn this around. 
So some of that in the short run we have got to do. I 
understand. But thank God we have got the Stryker Brigade in 
there so that at least now I am convinced that day to day the 
road network we can keep open.
    So it is the Afghan National Army (ANA). That is the center 
of gravity of the war from the U.S. military's perspective in 
my judgment.
    Mrs. Davis. General Barno.
    General Barno. We talked about that actually a bit at the 
break with Beth Cole here that this ramp-up of the Afghan 
security forces is going to be absolutely critical, and we have 
got Lieutenant General Bill Caldwell nominated to go out there 
and take over that mission. That is going to be the most 
important thing that happens in Afghanistan in the next three 
years. And his challenge will be to muster as much energy from 
Washington to help him get that done as he can because if that 
doesn't work, then the rest of the enterprise is not going to 
work for us. Those are going to eventually have to be not 
Marines at Nawa but Afghan forces at Nawa, both police and 
army.
    Ms. Cole. Just to add to that, I think we also need to step 
back again and realize that part of the country we are trying 
to stabilize, the other part of the country we are actually 
doing reconstruction. It is not all combat all the time. So 
whatever algorithm you want to arrive at, we need to identify 
the areas where there is high insurgent activity and try to 
stabilize those while keeping our eye on the other places where 
we actually--where we have stabilized and we are actually in a 
reconstruction mode. It is not all combat all the time.
    Mr. Waldman. Just one or two remarks about Afghan national 
security forces. I think certainly there needs to be a great 
deal of caution not to sacrifice quality in a drive for 
quantity. And of course General McChrystal has suggested 
doubling the number of police and perhaps more than doubling 
the number of military serving in the Army. And they are on 
short time frames as well. And I think certainly with respect 
to the police it is arguable that some of the actions at a 
local level have perhaps consolidated and strengthened the 
insurgency. So a great deal of caution is required there, I 
think.
    We also need to think about sustainability. The Afghan 
Government has a revenue of about a billion dollars. Now, the 
United States, as I understand it, is spending about $3.5, $3.6 
billion on the Afghan national security forces this year. So it 
is going to be important to think about the financial 
sustainability of the armed forces.
    I mean, the other points I would make that are really 
critical to this is effective political engagement at 
addressing some of these problems. Until some of these 
fundamental problems are addressed in society, then these 
conflicts will continue. And I mean this is an incredibly 
complex area. It is, I think, very difficult for outsiders to 
understand, but I think we can at least recognize that that is 
the case and to take steps to help institutions and political 
systems to be able to address that.
    And I just want to put on the record, I did want to mention 
I think it is important to clarify that nongovernmental 
organizations can operate in insecure areas, and actually in 
the south and southeast there are many that do operate there 
today. I mean, NGOs operated under the Taliban regime right up 
until the intervention. There are mechanisms of doing that, and 
of course the priority has got to be those organizations which 
are going to be there into the future and that are Afghan that 
can respond to Afghan needs, and then you are starting to build 
up accountability within society for how resources are used to 
benefit people.
    So I would stress that side of the state-building agenda.
    Mrs. Davis. Thank you. I appreciate that. I think what the 
American people are having a very difficult time understanding 
is whether or not we would continue an effort where we don't 
perceive nor do the people that we are trying to help perceive 
that there is a legitimate government.
    In that context is there a role that you think we should be 
doing differently in the upcoming election and are we using 
whatever leverage we have, which should be great but I think we 
haven't necessarily used it much, in trying to really impress 
upon the leaders that we need to see some action, whether it is 
in the corruption area or what have you? What is our leverage 
that you see, and how do we explain to the American people that 
this is an effort done really with a void in terms of the 
governing?
    General Barno. I was the overall military commander during 
the 2004 presidential election, and we made the main effort for 
the military that year of setting conditions for that election 
because we recognized it was the most important strategic event 
in Afghanistan in 2004. The election this year was the most 
important strategic event in Afghanistan. In many ways it was a 
serious failure. The international community, the United 
Nations took a very minimalist role where they had the ability 
to take a much greater role to prevent the outcome that we saw 
occur after August 20.
    So now there is almost an opportunity to do this the second 
time. So one of the things I think that absolutely has to 
happen is a much deeper international and United Nations effort 
to ensure this election is held in a supervised manner, which 
the last one was not. Now, the timelines make that 
extraordinarily difficult to do. So I think that is an area.
    On the other side of the coin I would say the fact we are 
going to a run-off reflects some strength in the process. There 
were enough safeguards in the process so that the initial 
election result rightfully was called into question, was 
challenged, was evaluated, and enough votes were thrown out to 
force a run-off. That is a success story, although a dusty, 
muddy one, I am afraid, but it is still a success story. Now 
the legitimacy in this next election is critical to ensure that 
the outcome of that has the confidence of the Afghan people.
    Ms. Cole. I think we actually have an opportunity right 
now, as was demonstrated with Senator Kerry negotiating with 
President Karzai, to identify those people in the government 
who we know that are corrupt and we know the Afghan people 
don't respect and to try to deal with them at this moment and 
then to embrace and empower the ones that we know are 
legitimate and are accountable. And we have all worked with 
wonderful Afghan leaders, ministers and others, who are the 
leaders for the future, but I think we have a moment in time 
right now where we have to press this case, the international 
community, all of those nations that have invested in 
Afghanistan, and do it with the Afghans themselves. But I think 
it is time to press it.
    Mr. Waldman. I would just add to that, I think many of the 
policies that we have implemented have actually compounded 
these problems of corruption, in fact. It was policies that 
forged alliances with local strongmen and warlords in 
Afghanistan that have I think led to this you know modus avendi 
of corruption, and it is not surprising that that is, you know, 
reflected in the current administration. And I think it really 
does require America and other states to usually reach to 
change their position with respect to those kinds of alliances 
of convenience and take principled stands on some of these 
issues.
    You know, I also think that there are other things that can 
be done better; for example, the work on governance. If you 
look at the thousands of consultants that are deployed in what 
is an uncoordinated fashion, many have little experience. Some 
are you know very talented but many have little experience. 
They don't have familiarity with the country, of course paid 
enormous sums money, and I think there really needs to be a 
very serious consideration, a rigorous consideration of what 
they are delivering. Of course they are necessary to some 
extent, but I think we have to accept there are deep flaws in 
the contracting and the consulting system that currently 
exists.
    Dr. Snyder. I want to ask another question, again directed 
primarily to the military folks but the others can join in if 
they would like. Would you all put yourself in the position of 
the Pakistani military as they are undertaking what appears to 
be some very difficult work on the Pakistani side of the 
border? How do they view this discussion that is going on? What 
do they want to have happen on the Afghan side of the border 
with regard to the NATO forces?
    General McCaffrey. I am always fascinated--I always start 
off in Pakistan, spend some period of time there and listen 
very carefully to the Pak military and the Inter-Services 
Intelligence (ISI) and Pakistani politicians and go to the 
other side of the border, to include the U.S. team. Sometimes 
opposite sides of the coin. It is astonishing why there is this 
division, why there is this deep loathing on the part of the 
Afghans, many of them, toward the Pakistanis that gave them 
some support and sanctuary for so many years in their struggle 
against the Soviets and, conversely, the lack of the sort of 
empathy on the part of the Pakistanis for the millions of 
Afghan refugees who are stuck in their own territory. It has 
been surprising to me.
    The Pakistani military, and a couple of us were talking 
about this before, I am not an expert on Pakistan but I am sure 
of one thing: That is not a single monolithic state. It is four 
separate nations under one weak federal system. And when you 
look at the federal system, there has been a history of 
corruption and incompetence on the part of the political 
parties and the leadership. And the one institution that has 
been load bearing in Pakistan was the army, and the army is 
also the ISI and the army is the Frontier Corps, and the army 
loans their generals to run ministries.
    So it has tended to be--and it is also, and this disturbs 
people, the most respected institution bar none in Pakistan. So 
we end up with a situation--by the way, neither the army nor 
the political system never had one bit of control over the 
Federally Administered Tribal Areas (FATA), never mind much of 
Balochistan. There are places in downtown Quetta where the ISI 
won't go at night. So under our urging, they have intervened in 
these border areas. They are a remarkably small, professional, 
badly equipped force. They are primarily--if you talk to the 
Pak military, they spend 99 percent of their time worrying 
about the Indians and the confrontation to the east. Gradually 
they have come to support us.
    I personally think that without the support of the 
Pakistani Government and the military, our presence in 
Afghanistan would disappear and die of lack of oxygen within a 
year. So we have to be very careful of what we say in public 
and what we do in private. I think the initiative to provide 
nonmilitary aid to Pakistan is really a good one.
    So we are broadening our contact with these people in the 
last year. That is the good news.
    General Barno. I would broadly agree with that. I spend 
lots of time with Pakistani officers. I have got 50 of them 
coming to my center here in a week for another 2-week session, 
which we have done several times in the last year. They are 
conflicted in some ways because now they recognize they have an 
internal security threat with the so-called Pakistani Taliban, 
who are somewhat different and distinct from the Afghan Taliban 
across the border. They are now--their activity in the 
Pakistani army in fighting this Pakistani Taliban in Swat and 
now about to start in Waziristan is impressive. It is notable. 
It is a major change and it very much supports our interests 
and their interests.
    They have a bit of a different approach, I think, with 
regard to the Taliban in Afghanistan. And I think it is most 
positive that there is ambivalence, that they--they neither 
support them directly or fight them directly and have had a 
historical connection to that group that has given them 
capability to influence events inside of Afghanistan. They 
don't want to let go of that connection entirely because they 
are simply uncertain about what we are going to do and whether 
we are going to be there three years or five years from now.
    So I think they deserve full credit for what they are doing 
in fighting their own internal threat which they now recognize, 
and I think we need to continue to work with them on convincing 
them we are there for the long haul so they can disassociate 
themselves further from the Afghan Taliban that are fighting 
our forces now in the southern and eastern portions of 
Afghanistan.
    Dr. Snyder. Susan, do you have anything further?
    Mrs. Davis. No.
    Dr. Snyder. Once again I apologize for the delay due to 
votes, but you have all been through that before. We appreciate 
your service. We appreciate your attendance here today. Feel 
free to send us anything written for us to look at that will 
also be made part of this record if you think of something that 
you would like to add. Thank you, again, for being here today.
    We are adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                            October 22, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 22, 2009

=======================================================================


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
